Andrew Tutt
+1 202.942.5242 Direct
Andrew.Tutt@arnoldporter.com

December 5, 2020

Via CM/ECF
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re:

Alex M. Azar, II, Secretary of Health and Human Services, et al. v. Mayor
and City Council of Baltimore, S.Ct. No. 20-454

Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on
October 7, 2020, and placed on the docket on October 8, 2020. The Mayor and City
Council of Baltimore’s response was originally due on November 9, 2020. At the City’s
request, the Court extended the deadline to respond to December 9, 2020. The City now
respectfully requests that the Court further extend the time for the City to respond by 58
days, to February 5, 2021. The City discussed this motion with counsel for the
petitioners and petitioners oppose this request and intend to file a response. If the Court
concludes a longer extension of time is unwarranted, the City respectfully requests, in the
alternative, a shorter extension of time to file its response, to December 17, 2020.
The Court should extend the time for the City to respond to the petition because
insurmountable barriers to this Court’s review of the decision below will almost certainly
arise in late January. Two days after his inauguration in 1993, President Clinton ordered
HHS immediately to rescind a rule materially similar to the rule at issue in this case.
Mem., The Title X “Gag Rule,” 58 Fed. Reg. 7455 (Jan. 22, 1993). In response, HHS
rescinded that earlier rule, with immediate effect, sixteen days after the President’s
inauguration, on February 5, 1993. 58 Fed. Reg. 7462 (Feb. 5, 1993). The Presidentelect has said many times that he intends to do as President Clinton did and “reverse” the
rule at the center of this case after his inauguration on January 20, 2021. See The Biden
Agenda for Women, https://archive.is/TPl8M; see also Joe Biden, Tweet of Aug. 19, 2019,
https://archive.is/WA5aj (the rule is “wrong, and as president I will reverse it”). A short
extension of time would benefit the Court by permitting the City the opportunity to
discuss the consequences of those actions for this Court’s review in its response to the
petition.

A short extension also will not prejudice the petitioners. The permanent
injunction in this case has been in place for nearly ten months (since February 14, 2020).
Petitioners did not seek a stay of that permanent injunction in this Court. Petitioners have
continued to administer the program effectively notwithstanding the permanent
injunction which is narrow, limited to Maryland. Furthermore, the very probability that
this case will become unreviewable in late January means a short extension of time would
not prejudice the petitioners because this case is unlikely to reach the merits in this Court
this Term whether the Court grants an extension or not.
Additionally, counsel for the City’s competing obligations make the current
December 9, 2020 response deadline difficult to meet. Complications arising out of the
COVID-19 pandemic continue to interfere with counsel’s ability to prepare a response to
the petition. And the heavy press of other obligations, including deadlines in other
matters pending in this Court and in courts of appeals nationwide, have hindered the
preparation of a response in this case.
The City appreciates petitioners’ aim to have this case heard this Term. But this
case almost certainly will not reach the merits in this Court and any response the City
files is likely to be overtaken by events. In light of that overwhelming likelihood, the
Court should grant a short extension that may obviate any need for the City to respond at
all.
If this Court denies the City’s request for a longer extension, the City requests, in
the alternative, that the Court at least grant a short extension of time to respond to the
petition to December 17, 2020.

Respectfully Submitted,
By /s/ Andrew Tutt
Andrew T. Tutt
cc: See Attached Service List

2

20-0454
ALEX M. AZAR, SEC. OF HEALTH & HUMAN SERVICES, ET AL.
MAYOR AND CITY COUNCIL OF BALTIMORE
JEFFREY B. WALL
ACTING SOLICITOR GENERAL
UNITED STATES DEPARTMENT OF JUSTICE
950 PENNSYLVANIA AVENUE, NW
WASHINGTON, DC 20530-0001
202-514-2217
SUPREMECTBRIEFS@USDOJ.GOV
HASHIM M. MOOPPAN
COUNSELOR TO THE SOLICITOR GENERAL
UNITED STATES DEPARTMENT OF JUSTICE
950 PENNSYLVANIA AVENUE, NW
WASHINGTON, DC 20530-0001
HASHIM.MOOPPAN@USDOJ.GOV
BRINTON LUCAS
ASSISTANT TO THE SOLICITOR GENERAL
UNITED STATES DEPARTMENT OF JUSTICE
950 PENNSYLVANIA AVENUE, NW
WASHINGTON, DC 20530-0001
BRINTON.LUCAS@USDOJ.GOV

3

